GENERAL SERVICES ADMINISTRATION
    OFFICE OF INSPECTOR GENERAL



       Review of PBS’s Appraisal Process
               for Rent Pricing
        Report Number A060197/P/R/R08002

                 January 2, 2008
GSA Office of Inspector General
Report Number A060197/P/R/R08002



       REVIEW OF PBS’S APPRAISAL PROCESS FOR RENT PRICING


                                                        Table of Contents

EXECUTIVE SUMMARY ........................................................................................................... i 
INTRODUCTION......................................................................................................................... 1
   BACKGROUND .............................................................................................................................. 1
   OBJECTIVE, SCOPE AND METHODOLOGY ..................................................................................... 2
RESULTS OF AUDIT .................................................................................................................. 4
   APPRAISALS ................................................................................................................................. 4
     Appraisals Were Frequently Adjusted .................................................................................... 5
     Appraisal Process Contains Objective and Subjective Elements ........................................... 6
     Appraisal Files Include No Supplementary Documentation to Support Adjustments ............ 7
     In Some Instances, Appraisal Policy Was Not Followed........................................................ 8
     Limited Confirmation of Regional Oversight of the Appraisal Program ............................... 9
     Other Appraisal Concerns .................................................................................................... 10
   LINKING BUDGET TO PERFORMANCE ......................................................................................... 12
     Program Structure Provides No Inherent Incentive to Adjust Rates .................................... 13
     Established Methods Used to Increase FFO ........................................................................ 15
   TENANT ACCESS TO RECORDS ................................................................................................... 15
   SPACE MEASUREMENT – TENANT FLOOR CUT .......................................................................... 16
CONCLUSION ........................................................................................................................... 17
RECOMMENDATIONS ............................................................................................................ 18
MANAGEMENT COMMENTS ............................................................................................... 18
INTERNAL CONTROLS .......................................................................................................... 18
APPENDICES ............................................................................................................................. 19
   APPENDIX A............................................................................................................................. A-1 
     Management Comments ...................................................................................................... A-1
   APPENDIX B ............................................................................................................................. B-1 
     Comparative Analysis of PBS Appraisal Program Policy.................................................. B-1
   APPENDIX C ............................................................................................................................. C-1 
     Report Distribution ............................................................................................................. C-1
GSA Office of Inspector General
Report Number A060197/P/R/R08002



EXECUTIVE SUMMARY
                                            Purpose
The General Services Administration’s (GSA) Office of Inspector General – Office of Audits
initiated a review of the Public Buildings Service (PBS) Rent Pricing Program with a specific
focus on the Judiciary. The review addressed issues raised by the previous Director of the
Administrative Office of the United States Courts (AOUSC) in a June 2006 letter to the GSA
Inspector General. These issues were: 1) PBS employees are adjusting independent appraisal
rates in a predominately upward direction, 2) the Linking Budget to Performance program may
have created an incentive for PBS employees to alter rental rates, 3) PBS has been overcharging
the courts due to misclassified tenant floor cut space and erroneous billing, and 4) tenant access
to appraisal documents has been limited. The audit work included an examination of appraisal
files and aspects of the Linking Budget to Performance (LB2P) program.

                                          Background
PBS collects rent revenue from over 100 federal agencies housed in over 8,600 buildings. Rent
revenue is deposited into the Federal Buildings Fund and is used to acquire and operate GSA’s
building inventory. Rent charged in federally owned space, which represents 50 percent of
GSA’s rentable square footage, is required by law to approximate commercial market rates. The
major components of rent in federally owned buildings are established by a market-based
appraisal using comparable properties. The market-based appraisal relies on the professional
experience and judgment of the performing appraiser who is bound by professional appraisal
standards and GSA’s annual instructions for the appraisal of Fair Annual Rental (FAR) rates. It
is PBS policy to use a contractor to perform appraisals, but prior to its revision in June 2006, the
policy also allowed qualified PBS staff to prepare appraisals in-house. The appraisal report and
final value conclusions are reviewed by the GSA regional appraiser and accepted as a reasonable
approximation of commercial market rates for the subject building. PBS policy also allowed
GSA’s regional appraisers to make adjustments to the appraised rate to correct for “particular
facts concerning a specific occupancy of which the appraiser was unaware.”

                                       Results-in-Brief
Although the audit work did not support the AOUSC’s assertions, it did identify appraisal
adjustments and control issues. The audit found that PBS personnel had adjusted 43 percent of
the 377 contract appraisals in the audit sample in a predominantly upward direction. However,
the adjustments were permitted by the PBS policy in effect at that time. According to the written
rationale included in most of the appraisal files, the majority of the adjustments made by the
regional appraisers were to correct deficiencies they identified in the contractor’s appraisal. In
addition, downward adjustments were being made consistently and there have been fewer
adjustments over time. The audit also identified several control issues related to appraisal
adjustments. For example, the appraisal files rarely contained supplementary documents to
support the regional appraiser’s adjustments. Our review also found instances where the contract
appraisal did not follow PBS policy and the contractor errors were not identified or corrected by



                                                 i
GSA Office of Inspector General
Report Number A060197/P/R/R08002



regional appraisers.   There was limited documentation of regional oversight over appraisal
reviews as well.

While aspects of the LB2P program do encourage increasing revenue, the nature and timing of
the rent appraisal process and LB2P program do not provide an inherent incentive to adjust
appraisals for a personal benefit. In addition to our review of the LB2P program, we also
reviewed the critical elements included in the regional appraisers’ annual performance
evaluations. In a review of over 50 critical elements, we found no consistency among the
language used by the regions and identified only two elements with language that could be
interpreted as encouraging profitability in PBS buildings. Neither regional appraiser with these
critical elements made predominately upward adjustments to the applicable contract appraisals.

Our review also disclosed that PBS typically handled customer agencies’ requests for appraisal
information in accordance with the then-current policy. We concluded that changes in policy and
varying interpretations of guidance contributed to inappropriate billings for tenant floor cut
space.

                                    Recommendations
We recommend that the Commissioner of the Public Buildings Service:

   1) Establish specific documentation requirements for appraisal files to substantiate regional
      appraiser’s decisions and actions regarding an appraisal file (e.g. disregarded appraisals,
      adjustments made due to changes in space measurements, and customer appraisal
      requests). Requirements should provide details on what should be documented and how
      the documentation should be executed.

   2) Reinforce appraisal instructions and guidance with PBS regional appraisers to ensure the
      appraisal review process uncovers appraisal policy violations.

   3) Develop consistent critical performance elements for regional appraisers that will ensure
      performance expectations do not conflict (in fact and appearance) with the professional
      duties of the regional appraiser.




                                               ii
GSA Office of Inspector General
Report Number A060197/P/R/R08002



INTRODUCTION
                                          Background
The General Services Administration’s (GSA) Office of Inspector General – Office of Audits
initiated a review of the Public Buildings Service (PBS) Rent Pricing Program with a specific
focus on the Judiciary. The review’s original objective was to determine if PBS’s application of
its pricing policy was appropriate and consistent. In response to correspondence received from
the previous Director of the Administrative Office of the United States Courts (AOUSC), the
review objective changed to address the four issues raised by the Director.

The issues raised by the Director of the AOUSC in his June 2006 letter to the GSA Inspector
General were: 1) PBS employees are adjusting independent appraisal rates in a predominately
upward direction, 2) the Linking Budget to Performance program may have created an incentive
for PBS employees to alter rental rates, 3) PBS has been overcharging the courts due to
misclassified tenant floor cut space and erroneous billing, and 4) tenant access to appraisal
documents has been limited.

PBS Rent Pricing

PBS collects rent revenue from over 100 federal agencies housed in over 8,600 buildings. Rent
revenue is deposited into the Federal Buildings Fund and is used to operate federally owned
buildings and pay rent to lessors for leased space. Rent charged in leased space, which
represents 50 percent of the building inventory’s total rentable square footage, is priced as a pass
through of the underlying PBS lease contract rent, plus a PBS fee and security charges. Rent
charged in federally owned space, which represents the other 50 percent of the building
inventory’s rentable square footage, is required by law to approximate commercial market rates.

The major components of rent in federally owned buildings that are established by a market-
based appraisal using comparable properties are the shell rent, operating costs and parking. The
shell rent rate is established for a five-year period and remains level during this time. The
operating costs are escalated annually using an inflation factor—currently the Office of
Management and Budget (OMB) inflation factor. Parking rates receive annual adjustments only
when it is consistent with the prevailing practice in the local market. In addition to these
components, other applicable charges are also added to rent in federally owned space. These
charges include tenant improvement costs, security charges, and joint use charges.

The market-based appraisal relies on the professional experience and judgment of the performing
appraiser who is bound by professional appraisal standards and GSA’s annual instructions for the
appraisal of Fair Annual Rental (FAR) rates. It is PBS policy to use a contractor to perform
appraisals, but prior to its revision in June 2006, the policy also allowed qualified PBS staff to
prepare appraisals in-house. PBS policy also allowed regional appraisers to make adjustments to
the appraised rate to correct for “particular facts concerning a specific occupancy of which the
appraiser was unaware.” The appraisal report and final value conclusions are reviewed by the
GSA regional appraiser and accepted as a reasonable approximation of commercial market rates
for the subject building.

                                                 1
GSA Office of Inspector General
Report Number A060197/P/R/R08002




In situations in which the appraisal rental rate does not provide a fair return on investment, PBS
uses return on investment (ROI) pricing as a secondary means of pricing space in federally
owned space. The decision is made to use ROI pricing or a market-based appraisal when PBS is
either constructing a new building or completely renovating an existing building and requires
tenant and OMB consent.

                          Objective, Scope and Methodology
The objective of this review was to address the issues raised by the previous Director of the
Administrative Office of the United States Courts (AOUSC) regarding the Public Buildings
Service’s (PBS) process to establish rental rates, especially with regard to the integrity of
appraisal rates. Four issues were raised: 1) PBS employees are adjusting independent appraisal
rates in a predominately upward direction, 2) the Linking Budget to Performance program may
have created an incentive for PBS employees to alter rental rates, 3) PBS has been overcharging
the courts due to misclassified tenant floor cut space and erroneous billing, and 4) tenant access
to appraisal documents has been limited. Our work was conducted in the Northeast Caribbean,
Southeast Sunbelt, Great Lakes and Northwest/Arctic regions.

To gain an understanding of PBS’s programs pertaining to the AOUSC’s issues, we reviewed
prior audit reports issued by the Office of Inspector General (OIG) and the Government
Accountability Office; attended the PBS Fiscal Year (FY) 2006 Appraisers Conference;
familiarized ourselves with the relevant PBS guidance, organizational structure and staffing,
program background and information systems; and held discussions with program officials.

To accomplish our objective, we performed the following tasks:

      Reviewed a sample of 377 appraisal files for 118 buildings covering Fiscal Years 2000 -
       2008. The sample for each region was restricted to owned-buildings with the greatest
       reported Funds From Operations in Fiscal Year 2005 and excluded any known buildings
       that use return on investment pricing to determine rental rates. The file review focused
       on: 1) adherence to appraisal policy, 2) adjustments to appraisals, 3) controls, and 4)
       comparables used in the appraisal.
      Performed a limited desk review of 29 appraisal files requested by the AOUSC for 26
       buildings covering Fiscal Years 2000 – 2007. The results of our desk review were not
       included in the analysis provided in this report.
      Performed a limited desk review of 19 retrospective appraisals. These retrospective
       appraisals were requested by the National Office in order to verify that the billed rates
       (based on earlier appraisals) in various buildings included in the AOUSC request
       reflected commercially equivalent rent.
      Reviewed results of PBS’s Rent Appraisal Quality Initiative conducted in 2005 to address
       the quality and data integrity of appraisals.
      Evaluated funding reserved, allocated and distributed for the Linking Budget to
       Performance program for Fiscal Years 2000 – 2005.
      Evaluated the critical performance elements included in the regional appraisal staff’s
       annual performance evaluation.


                                                2
GSA Office of Inspector General
Report Number A060197/P/R/R08002



      Evaluated the impact of the tenant floor cut space classification on the PBS Court Rent
       Validation effort, which was initiated in response to the Judiciary to ensure that rates
       were supported by appropriate source documentation (i.e. appraisal).
      Reviewed the national and regional policy on, and practice of, the release of appraisal
       information to tenants.

Fieldwork was conducted between October 2006 and May 2007 in accordance with generally
accepted Government auditing standards.

A member of the audit team developed a personal impairment to their independence. During the
report-writing phase of this audit, after the completion of fieldwork, the member of the audit
team held discussions with and was subsequently offered employment by the Southeast Sunbelt
Region Public Buildings Service.




                                              3
GSA Office of Inspector General
Report Number A060197/P/R/R08002



RESULTS OF AUDIT
The Public Buildings Service (PBS) uses contractor appraisals as the basis for setting rental rates
for customer agencies in federally owned space. However, in a letter dated June 2006, the
former Director of the Administrative Office of the United States Courts (AOUSC) raised
several issues of abuse regarding the PBS appraisal process and the Linking Budget to
Performance (LB2P) program. In particular, the letter suggests that PBS personnel were
adjusting contract appraisals for the purpose of increasing PBS income as well as for personal
gain. In response to these assertions, we performed an examination of appraisal files and aspects
of the LB2P program.

Although appraisal adjustments and control issues affecting the appraisal process were identified,
the audit work did not support the AOUSC’s assertions. The audit found that PBS personnel had
adjusted 43 percent of the contract appraisals in the sample. However, the adjustments were
permitted by the PBS policy in effect at that time. According to the written rationale included in
most of the appraisal files, the majority of the adjustments made by the regional appraisers were
to correct deficiencies they identified in the contractor’s appraisal. The audit also identified
several control issues related to appraisal adjustments. For example, the appraisal files rarely
contained supplementary documents to support the regional appraiser’s assertions. Our review
also found instances where the contract appraisal did not follow PBS policy and the contractor
errors were not identified or corrected by regional appraisers. There was also limited
documentation of regional oversight over appraisal reviews. Additionally, our review did not
find evidence that personal gain was an incentive for the appraisal adjustments. While aspects of
the LB2P program do encourage increasing revenue, the nature and timing of the rent appraisal
process and LB2P program do not provide an inherent incentive to adjust appraisals for a
personal benefit. Our review also disclosed that PBS typically handled customer agencies’
requests for appraisal information in accordance with the then-current policy. In addition, we
concluded that changes in policy and varying interpretations of guidance contributed to
inappropriate billings for tenant floor cut space.

APPRAISALS
The Uniform Standards of Professional Appraisal Practice defines an appraisal as an opinion of
value, which is expressed numerically as a specific amount, range of numbers or relationship to a
previous value opinion or numerical benchmark. In the PBS program, this opinion of value is a
specific amount that sets the market rent rate PBS charges its customers. The fairness and
reasonableness of this opinion of value is important to both PBS and its stakeholders.

In his letter dated June 8, 2006, the previous AOUSC Director stated, “…GSA employees
materially adjusted (or in one case, ignored) the value conclusions reached by the independent
third-party appraiser.” The audit examined this assertion by reviewing 377 appraisal files for
118 buildings covering Fiscal Years 2000 – 2008 in four regions. The file review focused on: 1)
adherence to appraisal policy, 2) adjustments to appraisals, 3) controls, and 4) comparables used
in the appraisal.



                                                4
GSA Office of Inspector General
Report Number A060197/P/R/R08002



The audit found that 43 percent had been adjusted by PBS and in a predominantly upward
direction. However, on the whole, the adjustments do not appear to be driven by the intent to
increase PBS’s revenue as many were made to correct contractor errors. In addition, downward
adjustments were being made consistently and there have been fewer adjustments over time.
PBS policy in effect at the time did generally allow adjustments to be made to contract
appraisals. The appraisal process contains subjective aspects and many of the adjustments were
to adjust those components of an appraisal requiring the highest degree of professional opinion.
However, the audit did identify several control issues including limited supplementary
information to support appraisal adjustments, instances where PBS policy was not followed,
limited confirmation of regional oversight, as well as several other issues of concern.

Appraisals Were Frequently Adjusted

The appraisal file review focused on adjustments that resulted in a change in value to at least one
of four appraisal elements:

        Fair Annual Rate (FAR) – Office and/or Warehouse Space 1
        Services Rate – Office and/or Warehouse Space
        Inside Parking Rate
        Outside Parking Rate

Of the 377 appraisals reviewed, 215 (57 percent) had not been adjusted and 162 (43 percent) had
at least one element adjusted. Of the 162 adjusted appraisals, there were 282 total adjustments
that resulted in a value change to at least one of the four elements reviewed (an individual
appraisal could have more than one adjustment per appraisal). The average adjustment made to
the Fair Annual Rate for office space was an increase of $2.34, with adjustments ranging from an
increase of $16.86 per square foot to a decrease of $9.49 per square foot.

Included in the 282 adjustments were 70 adjustments made to correct obvious contractor errors
or omissions, including typographical errors, math errors, transposed numbers, incorrect rates
brought forward to summary sheet from the body of the report, or rates not brought forward to
the summary from the body of the report. Excluding these contractor errors or omissions, 69
percent of the remaining adjustments were upward dollar adjustments and 31 percent were
downward dollar adjustments.

Our review found the distribution of adjustments varied across the four regions included in our
scope. Although all four regions made adjustments to appraisal value conclusions, the majority
of appraisal adjustments (excluding contractor errors or omissions) were made in one region,
which accounted for 70 percent of all adjustments—including 74 percent of upward adjustments
and 62 percent of downward adjustments. Of the number of appraisals adjusted, this region also
had the greatest majority with adjustments made to two or more of the four appraisal elements
reviewed (81 percent). The percentage of adjusted appraisals with more than two adjustments to
the four appraisal elements reviewed in the other three regions ranged from 0 to 35 percent.

1
  The FAR rate is a fully serviced rate that includes shell rent and service costs (excluding security). Consequently,
our review considered adjustments made to shell rent as adjustments to the FAR rate and isolated adjustments made
to the services rate in order to avoid double counting.

                                                          5
GSA Office of Inspector General
Report Number A060197/P/R/R08002



Among these three regions, 74 percent of one region’s total adjustments were to correct obvious
contractor errors and the average adjustment to the office FAR rate in the other two regions were
downward adjustments.

In addition to the variations among the regions in the distribution of adjustments, we also noted
variations among fiscal years. There has been an overall decreasing trend in the number of
appraisal adjustments since 2002. We identified 28 appraisal adjustments in the 40 sample
appraisals completed in FY 2000; however, we only identified 4 appraisal adjustments in the 47
sample appraisals completed in FY 2006. This could be due to any number of reasons, including
improvements in appraisal instructions, regional response to PBS’s Rent Appraisal Quality
Initiative findings or the contractors’ understanding of the correct procedures to appraise federal
space.

Although our review found a significant number of appraisal adjustments, previous PBS policy
did allow regional appraisers to adjust appraisals. However, recent appraisal reforms have
limited the regional appraiser’s ability to adjust contractor’s appraisals for any reason, including
obvious contractor errors and omissions (see Appendix A to review appraisal reforms).

Appraisal Process Contains Objective and Subjective Elements

According to the regional appraisers, adjustments were made to the contractor’s fair annual rent
appraisal to correct deficiencies identified by the regional appraisers. Examples of the regional
appraiser’s rationale included making adjustments, in addition to those made by the contractor,
to comparable building attributes to better reflect the same condition and quality of space in the
federal building; adjusting escalation factors (or trend rates) to better reflect current market
conditions; and correcting the contractor’s appraisal to be in compliance with the then-current
appraisal instructions. Although the rationale may be logical, we saw very little evidence of the
contractor’s opinion on the regional appraiser’s changes. Further, there were instances noted in
the files in which the contractor would not accept responsibility for the changes made, but
accepted the regional appraiser’s adjustments as “an alternative viewpoint within market reason.”

When the Federal Property and Administrative Services Act established GSA in 1949, PBS’s
real property activities were carried out using appropriated funds. However, under the Public
Buildings Amendments of 1972 an intra-governmental revolving fund, now titled the Federal
Buildings Fund (FBF), was established to provide financing for PBS’s real property activities
including the operation, maintenance, and repair of GSA-controlled space, and the construction
of federal buildings such as Courthouses. The FBF is financed by income from the rent charged
to occupants of GSA-controlled space, which by law must approximate commercial rates for
comparable space and services. 2 The revised financing structure was established to promote
greater accountability for space usage since federal agencies would be required to budget and
pay for their specific space requirements.

PBS’s methodology for establishing market comparable rates for the majority of its owned
buildings is a market-based appraisal. Appraisals are based on a combination of objective and
subjective determinations. While there are many objective financial tools and formulas to assist
2
    Congress may also appropriate monies from the general funds of the Treasury to the FBF.

                                                         6
GSA Office of Inspector General
Report Number A060197/P/R/R08002



appraisers in arriving at value conclusions, there is not a single formula to evaluate every
variable or condition that must be considered. Subsequently, the appraisal and appraisal review
process rely on the professional experience and judgment of qualified appraisers, who may not
be using the same data or arrive at the same value conclusions. This is demonstrated by the
different conclusions reached by the contract appraisers hired by PBS to perform retrospective
appraisals 3 to compare with the original prospective contract appraisals. When comparing the
retrospective appraisals that we reviewed to the original contract appraisals, the value
conclusions differed frequently. It is also evident by the many changes PBS’s regional
appraisers made to the contractor’s appraisal conclusions.

Our review did not assess the validity of adjustments due to the complexity of the appraisal
process and the extent of the differences in the conclusions of the qualified professionals.
However, we did note that when adjustments were made to appraisals, in many instances it was
to adjust those components of an appraisal requiring the highest degree of professional opinion
(i.e. quality of space, street location, and age and condition of building) versus components
requiring less judgment (i.e. lease term, amount of square footage rented, and parking). Even
though contract appraisers had the benefit of a physical inspection in order to reach a value
conclusion, PBS staff, using information contained in the contractor’s appraisal and their
personal knowledge of the building inventory and market conditions, made adjustments to the
contractor’s conclusions. Although we did not assess the validity of adjustments, we found that
the majority of written explanations describing the regional appraiser’s rationale for the
adjustments seemed plausible.

Appraisal Files Include No Supplementary Documentation to Support Adjustments

PBS policy requires that adjustments to appraisal rates be thoroughly documented in writing.
However, initially, the policy did not specify what should be documented or how the
documentation should be executed. For the 282 appraisal adjustments found in our review, 89
percent had some written explanation to describe the adjustment. Although the majority of the
files had a written explanation, less than 1 percent of the appraisal adjustments included
documentation to support the regional appraiser’s rationale for the adjustment. Regional
appraiser’s frequently offered rationales for the adjustments made that could have been easily
supported. For instance, written explanations cited adjustments made based on available market
trend data or current leasing data but the file did not include copies of this information to support
the regional appraiser’s conclusion. Any person other than the regional appraiser reviewing the
appraisal file is expected to rely exclusively on the written explanation provided to support the
appraisal adjustments. Including copies of market sources, trend data, and lease information in
the file increases the controls over the program and allows the reviewer to better understand the
appraisal conclusions. According to PBS pricing policy, “the burden of proof is on PBS to
demonstrate that the fair annual rent rate was correctly derived from the appraisal…” It is
impossible to meet this burden of proof without relevant documentation to support adjustments
made by PBS. In recognition of this, PBS issued policy on December 3, 2004, which specifies

3
  PBS received retrospective appraisals to verify that the billed rates (based on earlier appraisals) in various
buildings included in the AOUSC request reflected commercially equivalent rent; where applicable, customer’s rates
were adjusted based on the retrospective appraisal. The retrospective appraisals had the benefit of reviewing
historical information, while the original, prospective appraisals were forecasting future market conditions.

                                                        7
GSA Office of Inspector General
Report Number A060197/P/R/R08002



that any updates or changes to a contractor’s appraisal must be thoroughly documented in writing
and requires that any perceived change in market condition must be supported by market data
and included in the appraisal update documentation.

In addition to the lack of supporting market or leasing information included in the appraisal files,
our review found very little evidence of contractor agreement with the PBS adjustments. Files
often cited that discussions were held with the contract appraiser, but we rarely saw evidence that
the contractor made the changes or provided PBS written agreement to the changes. However, it
may not always have been feasible to return the appraisal to the contractor for revision or to
procure a new appraisal for two reasons. First, all appraisals had to be completed by the deadline
established by National Office in order to provide customer agencies rent estimate information in
sufficient time to prepare for future budget cycles. Second, the PBS regional office would have
to absorb the cost of additional contract appraisals out of its regional budget.

Additional documentation helps to support a regional appraiser’s rationale for making
adjustments. In certain situations it also helps to confirm that policy was followed. For
example, we found one instance in which the regional appraiser increased the contractor’s
appraised services rate from $3.76 per usable square foot to $7.47 per usable square foot to
reflect the building’s actual service costs. Although the PBS Pricing Guide states that operating
expenses in federally owned space are based upon appraisals rather than actual PBS costs, the
guide recognizes that there are situations when a tenant’s requirements may differ from those
needed in conventional office space. In situations requiring additional operating and
maintenance services, PBS policy is to request reimbursement for the cost of services in excess
of the appraised operating cost component. Although the regional appraiser noted that the
appraisal was adjusted to reflect higher operating expenses “necessary for the client agency to
perform their function,” the appraisal file did not include any evidence that the tenant was
contacted regarding the additional reimbursement. Without such evidence, we cannot be assured
that the tenant requested the additional services or was aware of the additional reimbursement.

In Some Instances, Appraisal Policy Was Not Followed

While the regional appraisers were allowed to make adjustments to independent third-party
appraisals under the existing policy, our review did find instances in which PBS policy was not
followed. These violations were the result of errors by the contract appraisers that were not
identified by PBS.

According to PBS appraisal instructions, appraisers are required to assume that no security
services are available in federal buildings because these charges are handled separately.
However, in one region, 30 percent of the appraisals reviewed included security charges in the
contractor’s services estimate and the regional appraiser did not correct this error. This results in
a double charge to the tenant for the same service (i.e. in the services element of the FAR rate
and the separate security charge established by the Federal Protective Service), which is why it is
prohibited. The appraiser’s stated security service estimates found in our review ranged from




                                                 8
GSA Office of Inspector General
Report Number A060197/P/R/R08002



$0.01 to $1.17 per rentable square foot; resulting in potential annual security overcharges
ranging from $319 to $559,000 4 .

PBS appraisal instructions also require appraisers use only “arm’s length” or “open market”
transactions for direct comparison of market leases, which excludes federal government leases
from being used as comparables. However, we found 11 contractor appraisals that included
comparables with GSA leases and 3 with other federal leases. There was no evidence in the file
that these leases weren’t used for direct comparison in the appraisal.

Although the contractor was responsible for the violations made in the appraisal, PBS’s review
process should have revealed and corrected these errors in the appraisals. Our review did not
conclude that policy violations were a persistent issue; however, we believe that more oversight
over the review process would have prevented many of the errors.

Limited Confirmation of Regional Oversight of the Appraisal Program

A lack of specific guidance on adjustment approval and staffing limitations contributed to the
limited oversight found in the appraisal files. Under previous guidance, PBS had the authority to
adjust the contractor’s independent appraisal with the Regional Portfolio Director’s approval.
However, the guidance did not specify whether the Director’s approval was to be obtained
verbally or in writing. Accordingly, we found little evidence of the Director’s review or
approval in the appraisal files (2.5 percent of the appraisal files documented the management
review). The requirement to have Portfolio Directors and Managers review and approve
adjustments and appraisal rates is fundamental, but without documentation of the process, there
is no assurance that the review was performed and the approval was given.

Management oversight should have been especially emphasized in regions with limited appraisal
staffs. Some regions have the benefit of multiple regional appraisers and are able to have
adjustments reviewed by a second person. However, in the region with the majority of the
appraisal adjustments, only one individual was responsible for reviewing appraisals for the
majority of the appraisals in our sample. As a result, this individual’s appraisal adjustments were
not frequently reviewed.

After a PBS reorganization in 1995 decentralized the appraisal process, appraisal quality control
and enforcement was left to the regions. In 2002, National Office initiated a Rent Appraisal
Quality Initiative (RAQI) program to address the quality and data integrity of appraisals through
annual quality reviews. The review conducted in 2005 included a general review of all 11
regional appraisal programs and an appraisal specific review of 574 appraisals. The review’s
general findings were, “error rates among the regions warrant concern at the national program
level. Major areas of concern and vulnerability included qualified regional appraiser attrition,
inconsistent adherence to national policies, lack of documentation, and national inconsistency in
appraisal file management.”


4
 Calculated by multiplying the stated appraised security service cost by the rentable square footage of the applicable
building. The calculation does not consider appraisal adjustments. This is only an estimate of the potential security
overcharges and should not be considered the actual financial impact.

                                                          9
GSA Office of Inspector General
Report Number A060197/P/R/R08002



In response to RAQI review findings and other issues brought to light, National Office recently
implemented appraisal reforms that should address many of the regional oversight issues. For
instance, Portfolio Managers/Directors are now required to perform an appraisal program
concurrence to ensure that 1) the appraisal report was conducted and reviewed in accordance
with policy and 2) the Portfolio Manager/Director has reviewed and understands the degree of
change from the prior appraisal, has considered and evaluated market trends, and examined
comparables used in the appraisal. In addition, National Office staff will review and approve
appraisals for technical sufficiency.

Other Appraisal Concerns

   Disregarded Appraisals

    The previous AOUSC Director noted in his memo to the GSA Inspector General that PBS
    had ignored value conclusions reached by the independent third-party appraiser. Our review
    found two instances in which the contractor’s appraisal was not used. Both appraisals were
    in the same region.

    In one instance, the appraisal file included an addendum explaining the rationale for not
    using the appraisal. It stated that the region determined that the original appraisal was a
    market-pricing anomaly that was not supported by the previous or subsequent contractor
    appraisals (the same contractor performed all three appraisals) and used the subsequent
    contract appraisal to establish rental rates. However, in the other instance, the rationale was
    not fully explained. According to the file, the appraisal was not used at the request of the
    Asset Manager. During fieldwork, the regional appraiser stated that the comparable
    properties were inferior to the federal building; and that after discussions with the contract
    appraiser the previous contract appraisal rates were escalated instead of ordering a new
    appraisal. The basis for these types of decisions should be documented in the appraisal file.

   Inaccurate Treatment of Rentable/Usable Factor

    In FY 2000, PBS converted its entire inventory from its own “occupiable” method of
    measurement to the “usable” method of measurement of the American National Standards
    Institute/Building Owners and Managers Association (ANSI/BOMA) space measurement
    standards. Later, PBS switched to the “BOMA Building Rentable” measurement. According
    to PBS officials, the conversion has “created a layer of complexity to the appraisal process to
    accurately interpret and apply R/U ratios which have proven difficult to measure and
    interpret with actual market data and practices.” The rentable/usable (R/U) ratio (also known
    as loss factor) is calculated by dividing rentable square footage by usable square footage and
    represents the percentage of rentable square feet of a building devoted to tenant common
    areas such as hallways, lobby areas, electrical closets, shared bathrooms, etc.

    Depending on the method of measurement in effect at the time of the appraisal, the
    measurement methodology is accounted for in at least one of two areas of an appraisal—




                                                10
GSA Office of Inspector General
Report Number A060197/P/R/R08002



    rental analysis grid 5 and summary of FAR rates. First, the rental analysis grid includes a
    specific line item for “type of floor measurement.” This line item adjusts for differences
    between the subject and comparable building’s method of measurement (i.e. usable or
    rentable) and building efficiencies (i.e. R/U factor). Second, the appraisal file may include a
    summary, prepared either by the contractor or the review appraiser, which converts the
    appraised FAR rate to the GSA method of measurement.

    An evaluation of regional treatment of rentable/usable factors found six appraisal files with
    an incorrect adjustment for type of floor measurement made by the contractor and not
    corrected by the regional appraiser. During fieldwork, we found one appraisal file in which
    the contractor made an incorrect adjustment for type of floor measurement, which was not
    corrected by the regional appraiser. We performed additional analysis in this region, and
    found 5 additional appraisal files with the same error. All of the errors occurred in the earlier
    years of the program during the conversion to the ANSI/BOMA standards, therefore it is
    reasonable to assume that the complexity of the conversion caused the mistakes.
    Incidentally, the errors ultimately resulted in lower appraised FAR rates, which benefited the
    customer not GSA.

    Although we found some errors in the adjustments for the type of floor measurement, we also
    found that appraised FAR rates did consider variations between the subject and comparables’
    building efficiencies. Either the contractor or PBS, depending on the policy in effect at the
    time of the appraisal, accounted for the variations.

   Overcharges

    Our review found one instance in which an outside influence (i.e. from someone outside of
    the appraisal staff) resulted in direct financial impact to a PBS tenant. Due to a
    misunderstanding of the data source used to establish rent estimates, a tenant was charged an
    outside parking rate. This contradicted the conclusion reached by both the regional appraiser
    and contractor, who agreed that in this specific market, parking is typically included in the
    base rent rate and not charged as a separate item. When the regional appraiser raised the
    issue, the regional Revenue Manager suggested that PBS let the rate run until the tenant’s
    billing record expired “since the specific agency has not filed an appeal.” The additional
    parking charges are approximately $1.3 million and should have been credited back to the
    agency.

   Missing Appraisal Files

    One region could not produce a complete appraisal file for three buildings in our sample.
    The three files contained only a faxed copy of the rate summary and did not include
    comparable data sheets, rental analysis grids, GSA forms, etc. We performed a limited

5
  The rental analysis grid includes two adjustment sections: services furnished and other adjustments. Service
expense categories include cleaning, repairs and maintenance, utilities, roads/grounds, administrative expenses, and
security. Other adjustments are analyzed based on the following items: lease date, lease term, location/quality/age,
amount of square footage rented, type of floor measurement, parking, initial alterations or tenant improvements, and
escalations.

                                                        11
GSA Office of Inspector General
Report Number A060197/P/R/R08002



    review of these files based on the provided information. In addition to the files missing in
    our review, regional documents indicate that at least 33 additional buildings in this region
    have missing appraisal files. All of the missing files were completed in fiscal years prior to
    the implementation of PBS’s formal appraisal retention policy.

LINKING BUDGET TO PERFORMANCE
The PBS Linking Budget to Performance (LB2P) Program was implemented in 1998 to 1) help
regions focus on performance, 2) instill accountability for performance, 3) foster financial
discipline, and 4) establish clear links between resource allocation and performances. The goal
is to encourage employees to think more creatively and try innovative ideas to better PBS
performance.

The national program is based on achievement of key business goals referred to as the “Big
Nine,” after the nine performance areas that employees strive to meet or exceed by the end of the
year. Based on national and regional performance, regions are awarded with increased budgets,
part of which could be used for employee awards.

The LB2P program has seen changes in its
performance measures, overall program funding,                       THE BIG NINE (FY 2006)
and account distributions since the program’s
inception. For instance, only five of the original            Performance Measure                    Weight
                                                              1) Ordering Official Survey            12.5%
nine performance measures were included in the                2) Realty Transaction Survey           12.5%
2006 program goals. In addition, the amount of                3) Tenant Satisfaction Survey           15%
available funding allocated to the LB2P program               4) Construction, On Schedule            7.5%
has decreased from $75 million in FY 2000 to                  5) Construction, On Budget              7.5%
$14 million in FY 2006. Also, for the majority of             6) Data Accuracy                        15%
the LB2P program’s existence, regions received                7) Funds from Operations:               15%
                                                                   FFO
allocations to the Basic Repairs and Alterations                   Assets with Positive FFO
budget activity (BA 54) as well as Building                   8) Vacant Space                         7.5%
Operations budget activity (BA 61) 6 . However,               9) Repairs and Alterations              7.5%
as of 2005, LB2P account allocation no longer                      Total Obligated
includes BA 54 and is limited only to BA 61. In                    Obligated as Planned
                                                              Note: Data Accuracy and Ordering Official Survey
spite of changes in the program details, the goals             were removed from the FY2007 LB2P program.
of the LB2P program remain essentially the same.

PBS uses a two-phase system to distribute LB2P funds to the regional offices using performance
measure results as a basis. In the first phase, funds are assigned to specific performance
measures using allocation weights ranging from 7.5 percent to 15 percent. Then, for each
performance measure, the funds are divided among the different regions using factors, such as
square footage or revenue, to determine the regions’ potential fund allocation for the
performance measure. After the measurement period is completed, the second phase of the
system is the distribution of funds based on how well each region attains its predetermined

6
  The Basic Repairs and Alterations account funds basic improvements and space alterations. The Building
Operations account funds building operation needs, including rewards to employees for meeting performance
targets.

                                                   12
GSA Office of Inspector General
Report Number A060197/P/R/R08002



targets for each measure. Once funds are distributed to the regions, PBS regional management
has the discretion to disburse the funds; however, the use of the funds is restricted to their
intended budgetary purposes.

The previous AOUSC Director stated, “…we are concerned that the PBS incentive awards
program, ‘Linking Budget to Performance,’ which provides monetary rewards to regions,
groups, and individuals for meeting or exceeding ‘Funds From Operations’ targets, may have
created unchecked motivational impetus for PBS employees to raise rental rates in an abuse of
agency discretion.” Our review found that the structure of the LB2P program does not inherently
provide an incentive for PBS to adjust rates.

Program Structure Provides No Inherent Incentive to Adjust Rates

Although adjustments made by the PBS regional appraisers do impact PBS’s funds from
operations, we found that the structure of the LB2P program does not inherently provide an
incentive for regional appraisers to inappropriately adjust rates.

TIME SPAN

Contract appraisals are completed and reviewed 22 months (on average) prior to becoming
effective. In order to provide customer agencies sufficient time to plan and prepare for budget
cycles, PBS provides rent estimates 18 months in advance; and several months are needed to
procure, perform, and review the contract appraisal. In addition, LB2P bonuses are paid
approximately 5 months after the fiscal period in which the appraised rental rate goes into effect.
This results in a 39-month 7 waiting period before any possible benefit could be received.

Considering the timing constraints alone, the planning and foresight required to gain personally
from artificially boosting rental rates does not appear to provide an inherent incentive,
opportunity or attitude to violate ethical responsibilities for a potential financial benefit. The
additional limitations of the program’s implementation provide less of an incentive.

PROGRAM IMPLEMENTATION

For most years of the LB2P program (including the most current years), the target for the Funds
from Operations (FFO) measure was based on revenue projections. A revenue projection is an
estimate of anticipated revenue receipts based on available information. Therefore, it is
reasonable that adjustments made by regional appraisers would be included in the region’s
revenue projections and incorporated into its FFO performance measure target. It is also
reasonable that any upward adjustments in the appraised rate would then increase the revenue
target that must be achieved in order to meet the performance measure and receive the LB2P
award.

The methodology used by the regions to award and distribute employee bonuses under LB2P
varied. We found that in most regions, bonuses were awarded based on the region’s

7
 39 months = 22 months (from appraisal completion and review to effective period) + 12 months (number of
months in an effective fiscal period) + 5 months (from effective fiscal period end to receipt of awards funds).

                                                      13
GSA Office of Inspector General
Report Number A060197/P/R/R08002



performance on all nine LB2P measures rather than linked to a single measure. Therefore, only a
portion of regional appraisers’ bonuses would be attributable to meeting the FFO target. In
addition, most regions used some variation of an equal share distribution to award bonuses,
which provided a limit on individual award amounts. The one region that did link award
amounts to performance on specific measures had the fewest number of appraisal adjustments.

Regional LB2P budget allocations were not used solely for employee bonuses. As mentioned
earlier, historically, a large portion of the distribution was used for building repairs and
alterations (ranging from 47 to 67 percent of the LB2P total allocation). The remaining
percentage that was allocated to BA 61 was distributed at the discretion of regional management
for operational costs including employee bonuses. The percentage of funds distributed to
employees as bonuses varied among the regions, with averages ranging from 17 to 57 percent.

CRITICAL ELEMENTS

In addition to our review of the LB2P program, we also reviewed the critical elements included
in the regional appraisers’ annual performance evaluations. According to the U.S. Office of
Personnel Management, a critical element “is an assignment or responsibility of such importance
that unacceptable performance in that element would result in a determination that the
employee's overall performance is unacceptable.” We reviewed over 50 critical elements 8 and
found no consistency among the language used by the regions. In addition, we found only two
elements with language that could be interpreted as encouraging profitability in PBS buildings:

     “Manages the RENT Reappraisal Program in cognizance of the need to
     maintain the profitability of the GSA Building Inventory in Region X.”

The above language does provide an incentive to boost rental rates (in order to maintain the
profitability of the building inventory) and presents a conflict of interest between the regional
appraiser’s role (i.e. establishing Fair Annual Rental rates) and meeting the critical element.

     Provided primary influence for [Level 5 rating] or positively supported [Level 4
     rating] exceeding financial targets.

The above language also provides an incentive to boost rental rates (in order to exceed financial
targets) and presents a conflict of interest between the regional appraiser’s role and meeting the
critical element.

The two elements were found in different regions, which did not include the region with the
majority of the appraisal adjustments. The first statement was found in a performance evaluation
from FY 1999 and it also included a measure to prevent fraud, waste and abuse. Also, of the
appraisals we reviewed in this region that were performed in FY 1999, the regional appraiser
made 10 adjustments—8 of which were downward. The second statement was included in a FY
2006 performance evaluation. Of the appraisals we reviewed in this region that were performed
in FY 2006, there were no adjustments made by the regional appraiser.

8
 We requested the performance evaluations for all persons serving in the regional appraiser role during FY 2000 –
FY 2006; however, we were unable to collect a complete sample.

                                                       14
GSA Office of Inspector General
Report Number A060197/P/R/R08002




In spite of the two critical elements above that present an incentive for regional appraisers to
boost rental rates, the majority of the critical elements did not provide an incentive.

Established Methods Used to Increase FFO

Throughout the history of the LB2P program, PBS has worked to identify business practices that
could be implemented to increase FFO. For instance, the National Office has used LB2P results
brochures to share best practices of the top performing regions and to outline ways for key PBS
job classifications to contribute to the goal. Regional offices have adopted process changes and
developed database models to improve performance on the LB2P measures. Examples of some
of the steps PBS is encouraged to take to increase FFO include:

          Managing leases with negative operating income
          Tracking vacant space and backfilling when possible
          Improving revenue collection process
          Ensuring accuracy of labor costing
          Improving data accuracy
          Improving collection of funds for above-standard services
          Monitoring operating expenses

We believe the effort that PBS has made to increase FFO is a better reflection of the atmosphere
observed in the appraisal program and among program management during our review.

TENANT ACCESS TO RECORDS
The PBS occupancy agreement (OA) outlines the financial specifics and responsibilities of both
PBS and the customer agency for a specific space assignment. It provides an estimate of rent,
description of the space and service and financial billing summary. The OA development
process is designed to be a collaborative effort between PBS and its customers throughout the
space acquisition and/or design and construction processes. By collaborating with customer
agencies, PBS hopes to reduce informal rent disputes and formal rent appeals. When a customer
does challenge the rent charged for a specific space assignment, PBS policy has been to discuss
the specific appraisal and the appraisal process with the customer agency and to provide copies
of some appraisal information, such as the comparables used for rental analysis (with
confidential information redacted).

The previous AOUSC Director commented on “the lack of openness surrounding the appraisal-
setting process” and notes, “agencies are generally not allowed to see the appraisals or the review
appraisers’ changes.” Based on the evidence we found in our appraisal file review, we
concluded that customer agencies’ requests for appraisals were usually addressed in accordance
with the then-current PBS policy regarding the release of appraisal information. Since PBS does
not formally document or track customer requests for appraisal records, our review relied on
evidence found in appraisal files and discussions held with program officials in the regions
visited. The majority of the regions included in our review provided some appraisal information



                                                15
GSA Office of Inspector General
Report Number A060197/P/R/R08002



to customers in response to formal and informal requests. However, one region’s policy prior to
recent reforms was to provide appraisal information only in response to formal rent appeals.

We were advised that customer appraisal requests were infrequent. For example, we were told
that one region hasn’t received a customer appraisal request in over two years. In addition,
within the past five years there have been a small number of formal rent appeals. PBS has
recently reformed its policy regarding the release of appraisal information in an effort to increase
transparency in the appraisal program. The new policy makes appraisal documents available for
all new occupancies in federally owned space.

SPACE MEASUREMENT – TENANT FLOOR CUT
The previous AOUSC director stated that one PBS region “had been overcharging the courts by
approximately $10 million per year through inappropriate billings for mis-classified tenant floor
cut space and for erroneous blending of rates.”9 Our review concluded that changes in policy
and varying interpretations of the guidance contributed to the inappropriate tenant floor cut
billings.

According to the PBS Business Assignment Guide, tenant floor cut (TFC) space, also referred to
as slab penetrations or voids, is defined as “vertical penetrations cut into the floor for the benefit
of a specific tenant, such as the upper level of a double height courtroom or private elevator or
communicating stair.” PBS has used two methods to bill tenants for slab penetrating space
within the past several years—one method makes adjustments to the shell rate and the other
makes adjustments to the square footage to arrive at the billing rate. The blended (or weighted
average) rate considers the usable space with and without slab penetrating space and computes a
new shell rate that is applied to the tenant’s total usable space. The rate is essentially a weighted
average of the sum of the usable square feet (without slab penetrating space) multiplied by the
appraised shell rate and the usable square footage of the slab penetrating space multiplied by
either 1.75 or 2.00 10 times the appraised shell rate. Starting in FY 2002, PBS began to bill slab
penetrating space based solely on square footage without making adjustments to the shell rate.
Under the new method of TFC billing, PBS increases a tenant agency’s usable square footage by
the square footage attributable to slab penetrations and charges the shell rate to the tenant’s total
square footage. According to PBS, the conversion to a new space measurement and
classification methodology added to the complexity of the appraisal process.

In order to effectively implement the new billing method, PBS intends to re-measure all owned
space in accordance with ANSI/BOMA standards. The process has taken several years and is
still on-going. Some guidance was distributed to help regions with the transition to the new
method, but it may have left certain implementation requirements up to interpretation.
Documents provided by regional officials indicate that blended rates were to be used to bill for

9
   The majority of the inappropriate billings were attributable to a single building. PBS credited the Courts $8.6
million for inappropriate TFC billings in one building.
10
    According to the PBS Pricing Guide, space classified as SP-3A (Structurally Changed), which included
courtrooms built prior to FY 1991, were billed at 1.75 times the appraised shell rate; and space classified as SP-3B
(Courtrooms), which included courtrooms built after FY 1991, were billed at 2.0 times the appraised shell rate under
the pricing policy prior to FY 2000.

                                                        16
GSA Office of Inspector General
Report Number A060197/P/R/R08002



slab penetrating space until a building was re-measured and that space would be assigned as TFC
after re-measurement. Regional officials stated that they requested but never received additional
guidance from National Office. Without additional guidance, regional officials relied on their
interpretation of the guidance. The regional interpretation resulted in several subsequent billing
adjustments.

During the PBS Court Rent Validation initiative, PBS National Office identified that one region
was inappropriately using blended rates and in June 2005 issued guidance clarifying TFC pricing
policy. We reviewed adjustments made to occupancy agreements as a result of the PBS Court
Rent Validation initiative and found several additional adjustments for TFC space, which were
all located in the same region. The isolation of TFC adjustments to one region implies that this
is not a prevailing, national problem.


CONCLUSION
PBS is taking action to improve the overall effectiveness of the appraisal program through
appraisal reforms, increased appraisal staff levels, RAQI reviews, policy reviews/changes, and
other measures. Many of its recent measures have already addressed the major issues identified
in our review. For instance, PBS has eliminated the regional appraiser’s ability to adjust
appraisal value conclusions, added additional management oversight responsibilities in the
regions and National Office, and adjusted its policy on customer’s access to appraisal
information. Potential impacts from these recent measures may include significant reductions in
the number of appraisal adjustments and increased transparency in the appraisal process. We
recognize PBS’s efforts to improve the controls over the appraisal program and believe the
program will progress further with the continued implementation of appraisal reforms.

Although PBS has already addressed many of the conditions found during our review, we
believe there are additional steps that should be taken to improve the appraisal program. First,
PBS must ensure that contractors prepare appraisals in accordance with appraisal policy and that
regional appraisers enforce these policies during their review process. Also, regional appraisers’
actions and decisions pertaining to an appraisal need to be documented and supported in the
appraisal file. For example, the appraisal file should include a memo to explain why appraisal
values were disregarded or source documents of measurement changes to support appraiser’s
adjustments due to changes in rentable/usable factors. In addition, the appraisal program should
eliminate (to the greatest extent possible) the appearance of conflicts of interest. Specifically,
regional appraisers’ performance should not be rated based on their performance meeting
financial goals and revenue managers should not assist in decisions made regarding appraisals.

We also suggest PBS consider taking alternative steps to improve the appraisal process. For
instance, centralizing some aspects of the appraisal program could ensure consistency in program
implementation. The use of a national contractor to perform appraisals could: reduce the
perpetual learning curve contractors experience in appraising buildings based on public sector
policy; increase the use and availability of real estate research tools (which may not be accessible
to smaller appraisal firms); reduce the challenge of finding competent and willing contract
appraisers at a reasonable price for the federal government; and reduce the resources needed to

                                                17
GSA Office of Inspector General
Report Number A060197/P/R/R08002



annually award the multiple regional contracts. Since regional appraisers are more familiar with
regional markets, they would still be responsible for primary appraisal review.


RECOMMENDATIONS
We recommend that the Commissioner of the Public Buildings Service:

   1) Establish specific documentation requirements for appraisal files to substantiate regional
      appraiser’s decisions and actions regarding an appraisal file (e.g. disregarded appraisals,
      adjustments made due to changes in space measurements, and customer appraisal
      requests). Requirements should provide details on what should be documented and how
      the documentation should be executed.

   2) Reinforce appraisal instructions and guidance with PBS regional appraisers to ensure the
      appraisal review process uncovers appraisal policy violations.

   3) Develop consistent critical performance elements for regional appraisers that will ensure
      performance expectations do not conflict (in fact and appearance) with the professional
      duties of the regional appraiser.


MANAGEMENT COMMENTS
Management concurred with the report recommendations.


INTERNAL CONTROLS
We evaluated the internal controls relating to the PBS appraisal program that were appropriate to
meet the objectives of this audit. Relevant internal controls issues are discussed in the context of
the review findings.




                                                18
GSA Office of Inspector General
Report Number A060197/P/R/R08002



                                   APPENDICES


 Appendix                           Appendix Title                    Page Number

     A         Management Comments                                       A-1
     B         Comparative Analysis of PBS Appraisal Program Policy      B-1
     C         Report Distribution                                       C-1




                                           19
GSA Office of Inspector General
Report Number A060197/P/R/R08002




                                       Appendix A

                                   Management Comments




                                           A-1
GSA Office of Inspector General
Report Number A060197/P/R/R08002



                                           Appendix B

                      Comparative Analysis of PBS Appraisal Program Policy
PBS recently implemented appraisal policy reforms to “strengthen program oversight and
management controls over the Fair Annual Rental (FAR) appraisal practice.” The chart below
identifies areas of concern found during our review, the previous policy, and the reforms recently
implemented that should address the identified areas of concern.
   AREA OF
                              PREVIOUS POLICY                           POLICY REFORMS
   CONCERN
                    Perform Appraisals:                         Only state-certified contract appraisers
                      Contractors – state-certified            will perform, modify, or update FAR
                      PBS – GS-1171 job series (appraising     appraisals in accordance with Uniform
                     and assessing) or state certified as       Standards of Professional Appraisal
                     “General Appraiser” (implemented in        Practice (USPAP).
                     FY 2007/2008 appraisal instructions)
                                                                Regional Appraisers cannot update
                   Modify/Update Appraisals:                    appraisals. Any circumstance requiring
                     PBS modifications could only occur        correction or modification in FAR reports
                    with the Regional Portfolio Director’s      must be brought to the attention of the
                    approval                                    original contract appraisers. Only the
                     According to the FY2000 instructions,     contract appraiser can make corrections,
                    appraisals could be updated by either a     changes, or revisions to his or her original
                    new staff or contract appraisal (at the     FAR report.
 APPRAISAL
                    discretion of the region)
ADJUSTMENTS
                     According to the FY 2007/2008             Regional Appraisers are now limited only
                    instructions, appraisals can be updated     to providing changes in FAR rates due to
                    for one of three reasons, including re-     changes in Rentable/Usable (R/U) factors
                    measurement that results in change in       from a new or re-measurement of a
                    R/U factor and rate, changes in market      building.
                    conditions and particular facts that the
                    appraiser may have been unaware. Any
                    updates or changes must be thoroughly
                    documented in writing. Any perceived
                    change in market condition, i.e. change
                    in trend factor from date of appraisal to
                    effective fiscal year date, must be
                    supported by market data and included
                    in the appraisal update documentation.
                    Portfolio Manager/Director:                 The regional Portfolio Manager/Director
                      Approve rates                            will now perform a FAR appraisal
                                                                program concurrence and recommend use
                   National/Central Office:                     of the appraised rates. The Portfolio
MANAGEMENT           Cross reference rent estimate data in     Manager/Director will provide written
 OVERSIGHT          national database to regional database      concurrence to be included in the appraisal
                     Analyze regional input                    file. Central Office appraisal staff will
                                                                review and approve FAR appraisals for
                                                                technical sufficiency and conformance to
                                                                appraisal specifications.



                                                  B-1
GSA Office of Inspector General
Report Number A060197/P/R/R08002

                                                       Appendix C

                                                  Report Distribution


                                                                                                             Copies

Commissioner, Public Buildings Service (P)................................................................. 3
Regional Administrator, Northeast Caribbean Region (2A).......................................... 1
Regional Administrator, Southeast Sunbelt Region (4A) .............................................. 1
Regional Administrator, Great Lakes Region (5A) ....................................................... 1
Regional Administrator, Northwest/Arctic Region (10A) ............................................. 1
Regional Inspector General for Auditing (JA-2, JA-4, JA-5, JA-9) .............................. 4
Regional Inspector General for Investigations (JI-2, JI-4, JI-5, JI-9) ............................ 4
Office of the Chief Financial Officer (B) ..................................................................... 2
Assistant Inspector General for Auditing (JA, JAO) ..................................................... 2
Assistant Inspector General for Investigations (JI) ........................................................ 1
Branch Chief, Audit Follow-up and Evaluation Branch (BECA)…………..…………1




                                                             C-1
